Mayer Brown LLP
71 South Wacker Drive
Chicago, IL 60606
United States of America
T: +1 312 782 0600
F: +1 312 701 7711
mayerbrown.com

Timothy S. Bishop
T: +1 312 701 7829
F: +1 312 706 8607

October 12, 2021

TBishop@mayerbrown.com

Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

National Pork Producers Council, et al. v. Karen
Ross, et al., No. 21-468

Dear Mr. Harris:
I am counsel of record for petitioners in the above-captioned case. I am writing to provide consent
for the filing of any amicus curiae brief relating to the petition for a writ of certiorari, in support
of either party or neither party, provided that the amicus curiae brief otherwise complies with the
rules of this Court.
Sincerely,
/s/ Timothy S. Bishop
Timothy S. Bishop
TSB/dsb
cc:

R. Matthew Wise, Deputy Attorney General, California Department of Justice
Bruce A. Wagman, Riley Safer Holmes & Cancila LLP

744245799.1

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

